Office of the City Attorney

James R. Rowader, Jr.
City Attorney
350 S. Fifth St., Room 210
Minneapolis, MN 55415
TEL 612.673.3000 TTY 612.673.2157

No. 20-896
Teresa M. Graham,
Petitioner,
vs.
Shannon L. Barnette, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
I certify that the BRIEF IN OPPOSITION in the above entitled case
complies with the requirements of Rule 33.2, as made applicable to this brief
by the Court's April 15, 2020, Order. The twenty-seven-page brief is prepared
in Century Schoolbook 14 point for the text and 14 point for the footnotes and
contains 4570 words total, 4204 of which comprise the body of the brief.
I declare under penalty of perjury that the forgoing is true and correct.

April 29, 2021

/s/ Brian S. Carter
Brian S. Carter

